November 13, 2009

TIMOTHY C. HANEY
VICE PRESIDENT, NORTHEAST AREA OPERATIONS

JEFFREY C. WILLIAMSON
ACTING MANAGER, PERFORMANCE AND FIELD OPERATIONS SUPPORT

SUBJECT: Audit Report – New York Metro Area Financial Accountability Risk Audit
         (Report Number FF-AR-10-013)

This report presents the results of our audit of the New York Metro Area1 Financial
Accountability Risk Audit (Project Number 09BD010FF000). We conducted this self-
initiated audit at six judgmentally selected post offices, stations, and branches (units),
and district offices in the Westchester, New York, and Triboro Districts: This audit
addresses financial risk based on factors evaluated by U.S. Postal Service Office of
Inspector General (OIG) Performance and Results Information Systems (PARIS)
models. See Appendix A for additional information about this audit.

Conclusion

The New York Metro Area had not effectively implemented financial internal controls
over stamp accountabilities, expenditures, and financial accounting and reporting. This
occurred because unit managers were either unaware of requirements or did not
provide sufficient attention to the financial controls. Further, area and district managers
could have improved oversight of local purchases and refunds. We identified similar
issues at 22 randomly selected sites conducted in the New York Metro Area over the
past 3 years in support of audits of the U.S. Postal Service’s financial statements. As a
result, New York Metro Area post offices have an increased risk of losing cash,
accountable items, and revenue without detection; and misstating financial records. We
identified more than $100,000 in monetary impact for questioned costs and nearly
$400,000 in non-monetary impact for assets and accountable items at risk.

Beginning in September 2008 and continuing today, the area implemented processes
and procedures to monitor individual unit compliance with financial internal controls. As
a result, New York Metro Area’s ranking in our PARIS model improved from the highest

1
    On October 1, 2009, the Postal Service merged the New York Metro Area into the Northeast Area.
New York Metro Area Financial Accountability Risk Audit                                                    FF-AR-10-013



risk area office in the first quarter, fiscal year (FY) 2009, to the third highest risk area for
the second and third quarters, FY 2009. During our audit, we noted improvements in
total office stamp stock management, retail floor stock count compliance, and clerk and
office cash management.

Financial Internal Controls

The New York Metro Area did not effectively implement internal controls over stamp
accountabilities, expenditures, and financial accounting and reporting. Although the
New York Metro Area recently implemented a process to monitor district level
compliance with certain financial internal controls, we identified 48 internal control
deficiencies of 92 control tests performed. This occurred because unit managers were
not always aware of financial control requirements or did not always place sufficient
emphasis on this aspect of their duties, and the area and districts did not provide
complete and sufficient oversight.

          Unit managers did not have sufficient awareness of, experience in, and training
           for financial control requirements. For example, nearly all managers’ career
           background was at Postal Service Operations and, at all six units, managers
           were unaware of the requirement to research financial differences. In addition,
           although some districts developed financial training programs for unit managers,
           most unit managers received fewer than 10 hours of training on financial controls
           while at their current positions. Further, the Postal Service developed 10 field
           finance training courses to help employees understand and perform their
           required financial duties and responsibilities.2 However, there was no
           requirement for unit managers to take these courses.

          Unit managers did not provide sufficient emphasis or attention to compliance with
           financial internal controls. Generally, managers did not believe this aspect of
           their required duties was as important as other operationally related duties. For
           example, at five units, managers were aware of the requirement for maintaining
           supporting documentation for refunds but did not always ensure their units
           complied with the requirement. We believe managers would provide increased
           attention to financial controls if compliance with those controls were included in
           unit managers’ evaluations.

          The Westchester, New York, and Triboro Districts could improve compliance with
           financial internal controls by providing increased oversight of local purchases and
           refunds. During FY 2009, New York Metro Area and the related district offices
           have worked to improve oversight of unit’s internal control compliance. We noted
           improvement in total office stamp stock management, retail floor stock count
           compliance, and clerk and office cash management. However, we believe
           increased district oversight is needed to achieve additional improvements.

2
    The 10 courses are the Field Finance Toolkit training courses listed on the Postal Service intranet (blue pages).




                                                             2
New York Metro Area Financial Accountability Risk Audit                                            FF-AR-10-013




Consequently, New York Metro Area post offices have an increased risk of financial
losses. We identified $114,515 of monetary impact3 and $386,375 in non-monetary
impact for assets and accountable items at risk.4 See Appendix B for a detailed
analysis of the finding. Appendix C presents a summary of the accountability
examinations we conducted.

We recommend the vice president, New York Metro Area Operations:

1. At a minimum, within 1 year of an employee becoming a unit manager or customer
   service supervisor, require the employee to complete the 10 “Field Finance Toolkit”
   training courses listed on the Postal Service intranet.

2. Require district offices to expand their monitoring of units’ compliance with internal
   controls to include additional monitoring of local purchases and refunds.

3. Develop and implement an action plan with milestones that will address the specific
   actions outlined in Appendix B and continue compliance with Postal Service policies.

Management’s Comments

Management agreed with our findings and recommendations and will require all new
customer service supervisors with responsibility for finance or retail activity to complete
the 10 “Field Finance Toolkit” training courses within 1 year of assuming a unit manager
or customer service supervisory position. In addition, management will issue a memo to
the district managers by November 21, 2009, advising them of their financial
responsibilities regarding local purchases and refunds. Further, management will use
the district manager Financial Control Scorecard to track and monitor controls over local
purchases and refunds beginning in FY 2010.

Regarding development and implementation of an action plan to address the specific
actions in Appendix B, management will require district managers to reemphasize the
control requirements with all of their reporting units. Effective October 1, 2009, the
district manager Financial Control Scorecard used in the Northeast Area will incorporate
the former New York Metro Area Districts to monitor and mitigate the high-risk financial
controls the audit identified. See Appendix F for management’s comments in their
entirety.




3
  The monetary impact includes recoverable revenue loss, recoverable questioned costs, unrecoverable questioned
costs, and unsupported unrecoverable questioned costs.
4
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.




                                                       3
New York Metro Area Financial Accountability Risk Audit                      FF-AR-10-013




We recommend the acting manager, Performance Field Operations Support:

4. Update FY 2011 pay for performance core requirement indicators to include
   compliance with financial internal controls for managers and supervisors at post
   offices, stations, and branches.

Management’s Comments

Management agreed with our finding and recommendation and will consider our
proposal for possible inclusion in the FY 2011 performance management system.
Management added that the Postal Service currently uses a Sarbanes-Oxley (SOX)
Index as part of their performance management system to measure financial controls at
retail units and bulk mail acceptance units. Many OIG risk indicators are already
included in the SOX index.

Evaluation of Management’s Comments

The OIG considers management’s comments to be responsive to the recommendations
and management’s corrective actions should resolve the issues identified in this report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin Ellenberger, director,
Field Financial – East, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Vincent H. Devito, Jr.
    Elizabeth A. Doell
    Joseph A. Branco
    Steven R. Phelps
    Bill Harris




                                                    4
New York Metro Area Financial Accountability Risk Audit                                             FF-AR-10-013



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Post offices are the initial level where the Postal Service recognizes revenue from
operations. The term post offices or units includes main offices, stations, and branches.
The postmasters or unit managers are responsible for collecting all receipts to which the
offices are entitled, accounting for all funds entrusted to them, and ensuring the offices
meet all reporting and accounting objectives.

On October 1 2009, the Postal Service merged the New York Metro Area into the
Northeast Area. The Northeast Area now has management responsibility for all of the
former New York Metro Area Districts and post offices. During FY 2009, the New York
Metro Area included seven districts with 1,547 post offices and reported approximately
$3.6 billion of operating revenue. The six units audited reported $12 million of revenue
during FY 2009.5

The OIG performs periodic financial risk assessments. Based on financial data in the
Enterprise Data Warehouse (EDW), the OIG developed a PARIS Cost and Controls
Model that ranks the Postal Service’s 80 districts according to specific financial risk
indicators.6 We selected the New York Metro Area because the PARIS model
demonstrated the area was a high financial risk compared with others. During FY 2009,
data ranked this area as the highest risk area office in the first quarter and third highest
risk area for the second and third quarters.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to identify high-risk accounting activities and determine whether
corresponding internal control procedures were in place and effective.

To accomplish our objectives, we identified 704 of 1,547 New York Metro Area post
offices, branches, and stations with high-risk accounting activities based on our PARIS
model. We audited the following six judgmentally selected post offices in three New
York Metro Area Districts.




5
  The FY 2009 revenue figures were obtained from the EDW Accounting Data Mart’s Financial Performance Report
as of November 03, 2009. The six judgmentally selected units reported $14 million of revenue during FY 2008.
6
  The risk indicators include: Revenue, Local Expenses, Refunds, Miscellaneous Expenses (financial differences),
Non-Local Purchases, Clerk Cash, Office Cash, Employee Items, Master Trust Accounts, Segmented Inventory
Accountability Compliance, Stamp Stock Management, and Contract Postal Unit Management.




                                                        5
New York Metro Area Financial Accountability Risk Audit                         FF-AR-10-013




                                   Site                       District
                       xxxxxxxxxxxxxxxxxxxxxx             Westchester
                       xxxxxxxxxxxxxxxxxxxxxxxxxx         Westchester
                       xxxxxxxxxxxxxxxxxxx                Westchester
                       xxxxxxxxxxxxxxxxxxxx               Westchester
                       xxxxxxxxxxxxxxxxxx                 New York
                       xxxxxxxxxxxxxxxxxxxxxxxxxx         Triboro

Using the PARIS model, we selected the six post offices based on the level of risk
associated with those sites in the following factors:

        1.   Local Purchases
        2.   Refunds
        3.   Financial Differences
        4.   Clerk Cash Management
        5.   Office Cash Management
        6.   Employee Items
        7.   Stamp Stock Count Compliance
        8.   Overall Unit Stamp Stock Management

Our audit scope covered the period from April 2008 through March 2009. At each unit,
we conducted counts of the unit reserve stock. Based on the results of those counts
and our evaluation of internal controls over stamp accountabilities, we also counted the
retail floor stock at two units. Additionally, we reviewed transactions and tested internal
controls over local purchases, refunds, financial differences, clerk and office cash
management, employee items, stamp stock count compliance, and overall unit stamp
stock management.

We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to
source documents. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. We interviewed
supervisors and employees and observed operations at these sites. We also
interviewed managers at the New York Metro Area and the Westchester, New York, and
Triboro Districts to discuss their monitoring of unit compliance with financial internal
controls. We also reviewed unit managers’ evaluations and training with area and
district managers.

We conducted this performance audit from February through November 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our



                                                    6
 New York Metro Area Financial Accountability Risk Audit                             FF-AR-10-013



 audit objectives. We believe that the evidence obtained provides a reasonable basis for
 our findings and conclusions based on our audit objectives. We discussed our
 observations and conclusions with management at the New York Metro Area on
 September 10, 2009, and Postal Service Headquarters’ Performance Field Operations
 Support on September 16, 2009, and included their comments where appropriate.

 PRIOR AUDIT COVERAGE

 The OIG issued the following 22 financial audit reports for the New York Metro Area
 within the past 3 years. The reports identified control and compliance issues over
 financial accounting and reporting, expenditures, and stamp and cash accountabilities.
 The reports made recommendations to address these issues, and management agreed
 to take corrective action.

                                                             Final                      Non-
                                             Report         Report      Monetary      Monetary
            Report Title                     Number          Date        Impact        Impact
FY 2009 Financial Installation Audit –     FF-AR-09-203    7/29/2009        $1,797         $22,864
South Livingston Station, Livingston,
NJ
FY 2009 Financial Installation Audit –     FF-AR-09-160     5/6/2009             -       $126,022
Whippany Post Office, Whippany, NJ
FY 2009 Financial Installation Audit –     FF-AR-09-061     1/8/2009       $15,517                  -
MOWS II, Trenton, NJ
FY 2009 Financial Installation Audit –     FF-AR-09-060    12/29/2008     $213,499      $1,440,000
James A. Farley New York Main, New
York, NY
FY 2008 Financial Installation Audit –     FF-AR-08-283    9/16/2008       $10,479          $7,293
Brooklyn New Lots, Brooklyn, NY
FY 2008 Financial Installation Audit –     FF-AR-08-259    8/13/2008        $1,957         $66,165
Brooklyn Blythbourne Station,
Brooklyn, NY
FY 2008 Financial Installation Audit –     FF-AR-08-249     8/1/2008        $9,146      $1,147,788
Ensenada Post Office, Ensenada, PR
FY 2008 Financial Installation Audit –     FF-AR-08-208    6/18/2008       $14,640         $32,757
Franklin D. Roosevelt Post Office, NY,
NY
FY 2008 Financial Installation Audit –     FF-AR-08-184    5/23/2008        $3,332      $1,027,486
Elberon Branch Post Office, Elberon,
NJ
FY 2008 Financial Installation Audit –     FF-AR-08-166    4/22/2008             -          $7,917
Oakhurst, Oakhurst, NJ
FY 2008 Financial Installation Audit –     FF-AR-08-154    4/10/2008       $18,428         $11,113
Staten Island Main Station, Staten
Island, NY




                                                     7
 New York Metro Area Financial Accountability Risk Audit                             FF-AR-10-013




                                                             Final                      Non-
                                             Report         Report      Monetary      Monetary
           Report Title                      Number          Date        Impact        Impact
FY 2008 Financial Installation Audit –     FF-AR-08-148     4/1/2008             -         $24,201
Kenilworth Main Post Office,
Kenilworth, NJ
FY 2008 Financial Installation Audit –     FF-AR-08-118     3/4/2008       $6,640                   -
Kilmer Lobby Branch, Edison, NJ
FY 2008 Financial Installation Audit –     FF-AR-08-110    2/25/2008       $1,517          $50,039
Roselle Branch Post Office, Roselle,
NJ
FY 2008 Financial Installation Audit –     FF-AR-08-109    2/25/2008             -                  -
Flushing Main Mobile Post Office,
Flushing, NY
FY 2008 Financial Installation Audit –     FF-AR-08-058    12/28/2007            -                  -
Huntington Post Office, Huntington, NY
FY 2007 Financial Installation Audit –     FF-AR-08-017    10/30/2007     $ 40,822      $1,124,515
Yauco Post Office, Yauco, PR
FY 2007 Financial Installation Audit –     FF-AR-07-246    9/19/2007      $ 64,089         $28,659
MOWS, Trenton, NJ
FY 2007 Financial Installation Audit –     FF-AR-07-232    9/12/2007       $ 7,663          $4,780
Lagrangeville Post Office,
Lagrangeville, NY
FY 2007 Financial Installation Audit –     FF-AR-07-230     9/7/2007      $ 28,306          $3,184
White Plains Main Post Office, White
Plains, NY
FY 2007 Financial Installation Audit –     FF-AR-07-178    6/19/2007      $ 53,021         $89,615
Grand Central, New York, NY
FY 2007 Financial Installation Audit –     FF-AR-07-161    5/18/2007      $ 36,655         $42,141
Midtown Post Office, New York, NY




                                                     8
New York Metro Area Financial Accountability Risk Audit                           FF-AR-10-013



                             APPENDIX B: DETAILED ANALYSIS

Financial Internal Controls

The New York Metro Area did not effectively implement financial internal controls over
stamp accountabilities, expenditures, and financial accounting and reporting. We
identified 48 internal control deficiencies of 92 tests performed. We identified similar
issues at 22 randomly selected sites in which we conducted tests in the New York Metro
Area over the past 3 years in support of audits of the Postal Service’s financial
statements. We determined managers did not receive sufficient training to be fully
aware of financial control requirements or provide sufficient emphasis or attention to
compliance with financial internal controls. Additionally, area and district personnel
could improve oversight of unit compliance with internal control requirements.

Beginning in September 2008 and continuing today, the area implemented processes
and procedures to monitor individual unit compliance with financial internal controls. As
a result, New York Metro Area’s ranking in our PARIS model improved from the highest
risk area office in the first quarter, FY 2009, to the third highest risk area for the second
and third quarters, FY 2009. During our audit, we noted improvements in total office
stamp stock management, retail floor stock count compliance, and clerk and office cash
management.

Awareness, Experience, and Training

Unit managers were not always aware of financial control requirements, nearly all
managers’ career background was in Postal Service operations and generally lacked
financial experience and training, and the area and district offices did not require
managers to complete financial training.

       Twenty-nine of the 48 financial control deficiencies identified occurred because
        unit managers were not always aware of the financial control requirements. For
        example,

            o Managers at all six units stated they were unaware of the requirement to
              research employee items and financial differences, although they received
              notifications of financial differences that outlined their required action.
            o At three units, management was unaware Postal Service policy limited the
              amount of stamp stock a unit could carry on its retail floor.
            o At two other units, managers maintained excess retail floor stock because
              they did not know how to compute the limit.

       Unit managers and supervisors came from operational backgrounds, but most
        lacked experience in financial internal controls. One of 11 unit managers and
        supervisors at the six units we audited had an accounting degree and had been
        detailed as an accounting clerk. However, the remaining 10 managers and




                                                    9
New York Metro Area Financial Accountability Risk Audit                                             FF-AR-10-013



        supervisors did not have financial management experience and would have
        benefited from training.

       Although some districts had developed some financial training, there was not an
        area-wide financial training requirement for managers and supervisors.7
        Consequently, most received limited training relating to financial duties and
        responsibilities. Based on training records reviewed,8 10 of 11 unit managers
        and supervisors received fewer than 10 hours of training on financial controls
        while at their current positions.

                                                                               Hours of
                             Manager/Supervisor                                Financial
                                                                               Training
                 Postmaster – xxxxxxxxxxxxxxxxxxxxxx                              1.25
                 Supervisor – xxxxxxxxxxxxxxxxxxxxxx                             3.75
                 Manager – xxxxxxxxxxxxxxxxxxxxxxxxxx                            1.50
                 Postmaster – xxxxxxxxxxxxxxxxxxx                                9.009
                 Supervisor – xxxxxxxxxxxxxxxxxxxx                               3.00
                 Postmaster – xxxxxxxxxxxxxxxxxxxxx                              7.50
                 Supervisor – xxxxxxxxxxxxxxxxxxxx                               9.50
                 Manager – xxxxxxxxxxxxxxxxxx                                    3.50
                 Supervisor – xxxxxxxxxxxxxxxxxx                                30.0010
                 Manager – xxxxxxxxxxxxxxxxxxxxxxxxx                             3.50
                 Supervisor – xxxxxxxxxxxxxxxxxxxxxxxxxx                         1.00

        Further, neither the area nor the districts required personnel to complete the
        financial training available on the Postal Service intranet. The Postal Service
        developed 10 "Field Finance Toolkit" training courses to help employees
        understand and perform their required financial duties and responsibilities.
        Completion of these courses is voluntary, and employees can take the courses
        as self-study or with a facilitator. The training courses cover:

             o    Customer Trust
             o    Daily Financial Reporting Basics
             o    Employee Items
             o    Field Unit Purchasing and Payment Process
             o    Financial Accountability Overview

7
  The New York District developed a 24-hour training program based on the course material in the “Field Finance
Toolkit” training courses and presented the training quarterly from May 2007 through FY 2008. Additionally, the New
York District presented a 4-hour training program on stamp stock management in February and March 2009, and was
presenting training Webinars based on the needs of the district. The Westchester District office developed a 4-hour
training program. However, the voluntary training was limited to how to access and read reports from the EDW and
not all unit managers and supervisors we interviewed participated.
8
  We reviewed training records from October 1, 2006, through June 30, 2009.
9
  Included 4 hours of financial training from the Westchester District Financial Control and Support (FCS) office.
10
   Includes 28 hours of financial training from the New York District FCS office.




                                                        10
New York Metro Area Financial Accountability Risk Audit                          FF-AR-10-013



            o   Financial Differences
            o   Financial Security
            o   Stamp Stock Management
            o   Timekeeping
            o   Unit 1412 Closeout

Emphasis on Internal Control Compliance

When managers did know the financial control requirements, they did not provide
sufficient emphasis on complying with those controls. Additionally, we believe the
formal manager evaluation process does not place sufficient emphasis on complying
with controls.

       Unit managers did not always provide sufficient emphasis or attention to
        compliance with financial internal controls. Generally, managers did not believe
        this aspect of their required duties was as important as other duties, particularly
        those related to Postal Service operations. For example,

            o At one unit, management stated it was more convenient to pay for
              supplies and services using cash or no-fee money orders than using
              another preferred payment method.
            o At five units, managers were aware of the requirement for maintaining
              supporting documentation for refunds, but their units did not always
              comply with the requirement.
            o At one unit, the postmaster knew he was required to examine retail
              associates’ accountabilities, but he did not know at what frequency and
              did not try to find out. Further, that postmaster did not count all the retail
              associates’ cash at the proper frequency although the district FCS office
              had informed him of the requirement.
            o Management at two units did not count the unit reserve stock.
            o At one unit, management shipped all stamp stock directly to the retail floor
              stock. Postal Service criteria requires that units only keep a limited
              amount of stock in the retail floor stock, and all other stock should be held
              in the unit reserve stock. Unit management abolished the unit reserve
              stock on November 17, 2007, and reestablished it on May 1, 2009. During
              this period, the unit kept as much as $108,997 in the retail floor stock, and
              exceeded the maximum retail floor stock limits. Although the district had
              notified the unit to establish a unit reserve stock, the unit abolished the
              unit reserve stock again during July 2009.

       Financial internal control compliance was not a significant part of unit managers’
        and supervisors’ evaluations. Under the pay for performance process,




                                                   11
New York Metro Area Financial Accountability Risk Audit                                            FF-AR-10-013



        employees are evaluated on organization-wide metrics11 and on individual
        performance objectives. The organization-wide metrics monitor enterprise and
        unit performance across the nation, while the individual performance objectives
        allow the evaluator and employee to set employee-specific goals from a
        predetermined list. Neither the nationwide metrics nor the employee-specific
        goals covered financial internal control compliance for unit managers and
        supervisors. We noted that financial internal control goals were available for
        district employees.

Oversight of Unit Compliance

The Westchester, New York, and Triboro Districts could improve compliance with
financial internal controls by providing increased oversight of local purchases and
refunds. The New York Metro Area and the related district offices have worked to
improve oversight of unit’s internal control compliance. Before FY 2009, the area and
districts performed limited monitoring of units’ internal control compliance. In
September 2008, the New York Metro Area implemented a financial scorecard to
measure districts’ financial internal control indicators. In response, the districts
increased their monitoring of unit’s compliance with financial internal controls. New
York Metro Area and district offices’ increased attention to internal controls has resulted
in improvements in overall compliance with financial controls. As a result, New York
Metro Area’s ranking in our PARIS model improved from the highest risk area office in
the first quarter, FY 2009, to the third highest risk area for the second and third quarters,
FY 2009. We noted improvement in total office stamp stock management, retail floor
stock count compliance, and clerk and office cash management. However, we noted
the following specific improvements the district offices could make.

       The New York District monitored local purchases and contacted units monthly,
        but the Westchester and Triboro Districts did not monitor for local purchases and
        contact units.

       The districts only reviewed refunds during SOX12 or other FCS office reviews of
        units. The Triboro District FCS office performed a SOX review of the Flushing
        Main Office Station during July 2008. The review identified improperly
        documented refunds as a risk. However, the unit continued to have
        undocumented refunds at the time of our audit. We believe additional district


11
   Unit and corporate indicators are organization-wide metrics aligned to improved customer service, generate
revenue, manage costs and enhance a performance-base culture. The unit and corporate indicators are measured in
the National Performance Assessment (NPA) system. NPA is a web-based system that collects performance-related
metrics - such as retail revenue, on-time Express Mail® delivery, and so forth - from source systems across the
organization. These metrics are translated into web-based balanced scorecards that can be used to monitor the
performance of both the entire enterprise and of individual units across the nation. NPA is a stand-alone program
that supports the Pay for Performance program and Performance Evaluation System.
12
   The SOX Act of 2002 aims to improve corporate governance and to enhance the accuracy of financial reporting.
FCS teams test components of financial processes to support management’s annual and quarterly SOX certifications.




                                                       12
New York Metro Area Financial Accountability Risk Audit                        FF-AR-10-013



        oversight over refunds was needed, because all six units audited had
        unsupported refunds.

Consequently, New York Metro Area post offices have an increased risk of financial
losses. We identified $114,515 of monetary impact and $386,375 in non-monetary
impact for assets and accountable items at risk. At all six units, we found:

       Excess retail floor stock totaling $154,914.
       Forty-three local purchases totaling $17,320 that could have been satisfied by
        another preferred payment method. Additionally, two units did not maintain
        adequate documentation to support 10 purchases totaling $1,423.
       Forty-seven refunds valued at $14,383 without supporting documentation.
       Financial differences expenses totaling $55,205 were not researched and
        resolved.
       Seventy-five employee items valued at $14,885 were not monitored.

Appendix D presents the details of the $114,515 monetary impact, and Appendix E
presents the detail of the $386,375 non-monetary impact.

The table on the following page presents a summary of the internal control deficiencies
found at each unit.




                                                   13
New York Metro Area Financial Accountability Risk Audit                                                                                                                       FF-AR-10-013




                                                       xxxxxxxxxx



                                                                    xxxxxxxxxx




                                                                                             xxxxxxxxxx




                                                                                                          xxxxxxxxxx
                                           xxxxxxxxx




                                                                                 xxxxxxxxx




                                                                                                                       xxxxxxxxx
                                                                                 Xxxxxxxx
                                                                    xxxxxxxx




                                                                                                          Xxxxxxx
                                           xxxxxxx




                                                                                             xxxxxxx



                                                                                                          xxxxxxx
                                                       xxxxxx




                                                                                             xxxxxx




                                                                                                                       xxxxxx
                                                       xxxxx
 Internal Control Not Implemented                                                                                                          Criteria           Specific Actions Required
                                                       Stamp, Cash, and Money Order Accountability
1.   Maintain retail floor stock levels                                                                                            Handbook F-10, Field     Reduce the retail floor stock
     within the 2-week postage sales                                                                                               Accounting Procedures    to the 2-week postage sales
                                               X          X           X            X            X            X          6
     limit.                                                                                                                        (FAP) Section 14-2.3,    limit.
                                                                                                                                   dated July 2009
2. Properly witness retail floor stock                                                                                             FAP Section 14-2.6       Have a supervisor witness
                                                                                                X                       1
   count.                                                                                                                                                   the retail floor stock counts.
3. Conduct timely examinations of                         X                        X            X                       3          FAP Section 13-10.1      Perform and document unit
   unit reserve stamp stock.                                                                                                                                reserve examinations at
                                                                                                                                                            proper frequencies.
                                                                                                                                                            Additionally, count the unit
                                                                                                                                                            reserve stamp stock when
                                                                                                                                                            the retail floor stock counts
                                                                                                                                                            exceed the authorized
                                                                                                                                                            inventory variance outlined
                                                                                                                                                            in policy.
4.   Maintain the total unit stamp stock                                           X            X                       2          FAP Section 11-3.4       Reduce total unit stamp
     within the authorized limit.                                                                                                                           stock to the authorized limit.
5. Record money orders.                                                            X                                    1          FAP Section 11-6.11      Record or return money
                                                                                                                                                            orders to the Stamp
                                                                                                                                                            Distribution Office (SDO), as
                                                                                                                                                            appropriate.
6. xxxxxxxxxxxxxxxxxxxxxxxxxxxxx               X                                                                        1          Management Instruction   xxxxxxxxxxxxxxxxxxxxxxxxx,
   xxxxxxxxxxxxxxxxxxxxxxxxxxxx                                                                                                    xxxxxxxxxxxxxxxxxxx      update control log, and send
   xxxxxxxxxxxx                                                                                                                    xxxxxxxxxxxxxxxxxxxx     copy of log to the SDO.
                                                                                                                                   dated January 1999
7. Adhere to the authorized limit for                                              X                         X          2          FAP Section 13-8.2       Reduced retail associates
   retail associate cash retained                                                                                                  (Cash Retained)          cash retained credits to the
   credits.                                                                                                                                                 authorized limit.




                                                                                                          14
New York Metro Area Financial Accountability Risk Audit                                                                                                                       FF-AR-10-013




                                                       xxxxxxxxxx



                                                                    xxxxxxxxxx




                                                                                             xxxxxxxxxx




                                                                                                          xxxxxxxxxx
                                           xxxxxxxxx




                                                                                 xxxxxxxxx




                                                                                                                       xxxxxxxxx
                                                                                 Xxxxxxxx
                                                                    xxxxxxxx




                                                                                                          Xxxxxxx
                                           xxxxxxx




                                                                                             xxxxxxx



                                                                                                          xxxxxxx
                                                       xxxxxx




                                                                                             xxxxxx




                                                                                                                       xxxxxx
                                                       xxxxx
 Internal Control Not Implemented                                                                                                          Criteria           Specific Actions Required
8. Perform retail associate cash                                                   X                         X          2          FAP Section 13-9.3        Perform and document retail
   retained credit examinations at the                                                                                                                       associate cash retained
   proper frequency.                                                                                                                                         credit examinations at least
                                                                                                                                                             once each month for credits
                                                                                                                                                             that have funds and every
                                                                                                                                                             4 months for credits with a
                                                                                                                                                             zero balance.
9. Adhere to the total unit authorized                                             X                         X          2          FAP Section 13-8.1        Reduce the unit cash
   cash retained limit.                                                                                                                                      retained to the authorized
                                                                                                                                                             level or obtain authorization
                                                                                                                                                             to increase the limit.
10. Perform examinations of the unit                                               X            X                       2          FAP Section 13-9.1        Count the unit cash reserve
    cash reserve at the proper                                                                                                                               examinations at least once a
    frequency.                                                                                                                                               month.
                                                                    Expenditures
11. Properly support or justify refunds.     X            X           X            X            X            X          6          FAP Section 21-1          Properly complete, review,
                                                                                                                                                             and retain Postal Service
                                                                                                                                                             Form 3533, Application for
                                                                                                                                                             Refund of Fees, Products
                                                                                                                                                             and Withdrawals of
                                                                                                                                                             Customer Accounts, for
                                                                                                                                                             refunds.
12. Maintain supporting                                               X            X                                    2          FAP Section 19-2.1        Obtain, review, and retain a
    documentation for local                                                                                                                                  receipt for local purchases.
    purchases.
13. Follow the preferred payment             X            X           X            X            X            X          6          FAP Sections 19-1.1 and   Make all payments through
    methods hierarchy for local                                                                                                    19-1.5                    electronic funds transfer
    purchases.                                                                                                                                               when available or practical.
                                                                                                                                                             Otherwise, use the preferred
                                                                                                                                                             payment methods hierarchy
                                                                                                                                                             for local purchases.



                                                                                                          15
New York Metro Area Financial Accountability Risk Audit                                                                                                                   FF-AR-10-013




                                                      xxxxxxxxxx



                                                                   xxxxxxxxxx




                                                                                            xxxxxxxxxx




                                                                                                         xxxxxxxxxx
                                          xxxxxxxxx




                                                                                xxxxxxxxx




                                                                                                                      xxxxxxxxx
                                                                                Xxxxxxxx
                                                                   xxxxxxxx




                                                                                                         Xxxxxxx
                                          xxxxxxx




                                                                                            xxxxxxx



                                                                                                         xxxxxxx
                                                      xxxxxx




                                                                                            xxxxxx




                                                                                                                      xxxxxx
                                                      xxxxx
 Internal Control Not Implemented                                                                                                         Criteria        Specific Actions Required
                                                                   Financial Accounting and Reporting
14. Reconcile employee items                X            X           X            X            X            X          6          FAP Sections 15-1.1,   Monitor employee items and
    balances to local unit records and                                                                                            15-1.3, and 15-2.6     prepare a file for each one
    research and resolve any                                                                                                                             with all appropriate
    differences. Clear or collect                                                                                                                        documentation. In addition,
    employee items on the Point of                                                                                                                       maintain a master control for
    Service Unresolved Employee                                                                                                                          all unresolved employee
    Items Report.                                                                                                                                        items.
15. Research and resolve expense            X            X           X            X            X            X          6          FAP Sections 8-1 and   Log financial differences and
    items resulting from financial                                                                                                8-6                    ensure timely offset by
    differences or maintain an                                                                                                                           making annotations to
    individual detailed record to                                                                                                                        identify status or date of
    monitor the discrepancies.                                                                                                                           offset.




                                                                                                         16
New York Metro Area Financial Accountability Risk Audit                                                                                                                             FF-AR-10-013



                                                         APPENDIX C: ACCOUNTABILITY EXAMINATION SUMMARY

             This table presents the results of accountability examinations performed during the audit, rounded to the nearest dollar.
             Shortages and overages presented are the total value of all shortages and overages identified.

                        xxxxxxxxx             xxxxxxxxxxxx            xxxxxxxx             xxxxxxxxxxxx                   xxxxxxxxxxx           Xxxxxxxxx              Total Value of All
                         xxxxxxx               xxxxxxxxxxx           xxxxxxxxxxx              xxxxxx                     xxxxxxxxxxxx           xxxxxxxxxx
                         Shortage




                                              Shortage




                                                                     Shortage




                                                                                             Shortage




                                                                                                                           Shortage




                                                                                                                                                Shortage




                                                                                                                                                                         Shortage
                                    Overage




                                                           Overage




                                                                                 Overage




                                                                                                               Overage




                                                                                                                                      Overage




                                                                                                                                                             Overage




                                                                                                                                                                                        Overage
    Accountability
     Unit Reserve
                                                         $1,166                 $385       $4,366                                                          $1,355      $4,366         $2,906
        Stock

       Unit Cash
                                                                                            $29                                                                         $29
       Reserve
      Retail Floor
                                                                                           $903                          $2,449                                        $3,352
        Stock
        Vending                                                                                              $2,828                                                                   $2,828
      Undeposited
                                                                                                             $72513                                                                    $725
         Cash




             13
                We found the cash during our audit of the post office. The unit did not record the cash on its records, and management did not know the source of the
             cash. The Post Office Operations Manager for the unit directed the postmaster to record the cash into Account Identifier Code 247, Financial Differences –
             Overage.


                                                                                                        17
New York Metro Area Financial Accountability Risk Audit                                                                                       FF-AR-10-013



                                             APPENDIX D: MONETARY IMPACT SUMMARY

This table presents the monetary impact identified during the audits of the six units, rounded to the nearest dollar.

         Appendix or                                                                      Questioned Costs
       Finding Number                                                                                          Unsupported           Recoverable
     (from Appendix B)         Finding Description                   Recoverable15        Unrecoverable16     Unrecoverable17       Revenue Loss14
     xxxxxxxxxxxxxxxxxxxxxxxx
                       Unsupported or improperly supported
             11        refunds
                                                                                                                           $617

              13            Improper Payment Method                                                 $5,404

              14            Unresolved employee items                         $8,624
                       Unresolved financial differences (net
              15       shortage)
                                                                              16,865
     xxxxxxxxxxxxxxxxxxxxxxxxxx
         Appendix C         Retail floor stock shortage                                                                  $2,449
                            Unsupported or improperly supported
              11            refunds
                                                                                                                            747

              13            Improper Payment Method                                                    425

              14            Unresolved employee items                              537
                       Unresolved financial differences (net
              15       shortage)
                                                                              12,980
     xxxxxxxxxxxxxxxxxxxxxxxxxxxx
                       Unsupported or improperly supported
            11         refunds
                                                                                                                         10,974

              13            Improper Payment Method                                                  8,623

              14            Unresolved employee items                             3,414
                            Unresolved financial differences (net
              15            shortage)                                             4,814



14
   Revenue that can be collected for goods delivered or services rendered.
15
   Recoverable costs that are unnecessary, unreasonable, or an alleged violation of laws or regulations.
16
   Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation.
17
   Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation. These costs are also not supported by adequate
documentation.


                                                                             18
New York Metro Area Financial Accountability Risk Audit                                                                           FF-AR-10-013



         Appendix or                                                                 Questioned Costs
       Finding Number                                                                                    Unsupported       Recoverable
     (from Appendix B)            Finding Description             Recoverable15      Unrecoverable16    Unrecoverable17   Revenue Loss14
     xxxxxxxxxxxxxxxxxxxx
                       Unsupported or improperly supported
            11                                                                                                      647
                       refunds
             12           Unsupported local purchases                                                                60

             13           Improper Payment Method                                                154
             14        Unresolved employee items                              432
                       Unresolved financial differences (net
            15                                                               8,487
                       shortage)
     xxxxxxxxxxxxxxxxxxx
         Appendix C       Retail floor stock shortage                                                               903

         Appendix C       Unit reserve stamp stock shortage                  4,366

         Appendix C       Unit cash reserve shortage                           $9

         Appendix C       Undeposited cash                                                                                              725
         Appendix C       Vending credit overage                                                                                       2,828
                          Unsupported or improperly supported
             11                                                                                                     834
                          refunds
             12           Unsupported local purchases                                                             1,362

             13           Improper Payment Method                                                879

             14           Unresolved employee items                          1,363
                          Unresolved financial differences (net
             15                                                              7,581
                          shortage)
     xxxxxxxxxxxxxxxxxx
                          Unsupported or improperly supported
             11                                                                                                     564
                          refunds
             13           Improper Payment Method                                              1,835
             14           Unresolved employee items                           516
                          Unresolved financial differences (net
             15                                                          $4,477
                          shortage)
                          Subtotals                                     $74,485              $17,320            $19,157            $3,553
                                     Total $114,515                                      $110,962                             $3,553



                                                                        19
New York Metro Area Financial Accountability Risk Audit                                              FF-AR-10-013



                           APPENDIX E: NON-MONETARY SUMMARY

This table presents the non-monetary impact identified during the audits of the six units,
rounded to the nearest dollar.

                                                                 Assets       Accountable
                                              Finding              at           Items at
                         Reference           Description         Risk18           Risk18
                        xxxxxxxxxxxxxxxxxxxxxxxx
                                         Excess retail floor
                              1                                                     $5,889
                                         stock                             
                        xxxxxxxxxxxxxxxxxxxxxxxxxx
                                         Excess retail floor
                              1                                                      9,353
                                         stock                             
                        xxxxxxxxxxxxxxxxxxxxxxxxxxx
                                         Excess retail floor
                              1                                                     58,735
                                         stock                             
                                         Excess unit cash
                              9                                     $483
                                         retained                                            
                        xxxxxxxxxxxxxxxxxxxx
                                         Excess retail floor
                              1                                                      7,944
                                         stock                             
                        xxxxxxxxxxxxxxxxxxx
                                         Excess retail floor
                              1                                                     21,036
                                         stock                             
                                         Unrecorded
                              5                                                   180,400 
                                         money orders
                                         Excess unit cash
                              9                                      263
                                         retained                                            
                        xxxxxxxxxxxxxxxxxx
                                         Excess retail floor
                              1                                                      1,957
                                         stock                             
                                         Unrecorded xxxx
                              6                                                     50,315
                                         xxxxxxxxxxxx                      
                                         Subtotals                   746          385,629

                                                 Total                   $386,375




18
  Assets or accountable items (for example, cash, stamps, and money orders) that are at risk of loss because of
inadequate internal controls.




                                                         20
New York Metro Area Financial Accountability Risk Audit     FF-AR-10-013




                        APPENDIX F: MANAGEMENT’S COMMENTS




                                                   21
New York Metro Area Financial Accountability Risk Audit   FF-AR-10-013




                                                   22
New York Metro Area Financial Accountability Risk Audit   FF-AR-10-013




                                                   23
New York Metro Area Financial Accountability Risk Audit   FF-AR-10-013




                                                   24
